October 26, 2007

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

SUBJECT:      Audit Report – City Delivery Vehicle Mileage – Base Versus Actual –
              Capital Metro Area (Report Number DR-AR-08-003)

This report presents the results of our audit of the City Delivery Vehicle Mileage – Base
Versus Actual in the Capital Metro Area (Project Number 07XG023DR000). This is one
in a series of reports on City Delivery Vehicle Mileage issued under the Value
Proposition Agreement between the Vice President, Delivery and Retail, and the U.S.
Postal Service Office of the Inspector General (OIG). Our overall objective was to
evaluate the accuracy of city delivery route mileage information in the Capital Metro
Area. Specifically, we evaluated (1) the accuracy of established route base mileage
information in the Automated Vehicle Utilization System (AVUS) and (2) variances
between the established route base mileages and actual mileages recorded.

Management can improve the accuracy of city delivery route mileage information in the
Capital Metro Area. Specifically, AVUS route base mileage information did not agree
with the authorized route base mileage in the Delivery Operations Information System
for 23 percent of the routes reviewed. Additionally, management did not always have
adequate support for mileage variances. Overall, these conditions existed because
district officials did not monitor city delivery mileage information. As a result, we will
report $2,117,349 in unrecoverable questioned costs in our Semiannual Report to
Congress.

Management agreed with our findings, recommendations, and monetary impact and has
initiatives planned addressing the issues in this report. Management’s comments and
our evaluation of these comments are included in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. The recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
Director, Delivery, or me at (703) 248-2100.




Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick Donahoe
    William P. Galligan
    Kathleen Ainsworth
    James Kiser
    Wayne W. Corey
    William A. Rinn
    Joseph A. Martin
    Lawrence Schaffer
    Carlton M. Harlow
    William C. Miner
    Nicholas L. Rinaldi
    Henry L. Dix
    David C. Fields
    Michael S. Furey
    Jacob L. Cheeks
    Katherine S. Banks
City Delivery Vehicle Mileage – Base Versus Actual                             DR-AR-08-003
 – Capital Metro Area



                                             INTRODUCTION
Background                        The U.S. Postal Service has over 216,000 postal-owned
                                  vehicles that carriers use to deliver almost 680 million
                                  pieces of mail each day on over 163,000 city routes. In
                                  fiscal year (FY) 2005, the postal-owned vehicles traveled
                                  approximately 1.2 billion miles and used over 125 million
                                  gallons of fuel.

                                  On motorized routes, city carriers are required to follow
                                  their authorized lines of travel at all times. This includes
                                  travel to and from authorized routes, lunch locations, break
                                  locations, refueling locations, and collection boxes.

                                  Supervisors and managers use the Delivery Operations
                                  Information System (DOIS) and the Automated Vehicle
                                  Utilization System (AVUS) to assist them in managing daily
                                  carrier operations.1 DOIS data includes mail volume, mail
                                  arrival and dispatch times, and projected office and street
                                  hours for routes. AVUS, a web-based application, includes
                                  daily vehicle utilization and authorized base and actual
                                  delivery vehicle mileage.

                                  The Postal Service generally establishes city route base
                                  mileage during route inspections using Postal Service (PS)
                                  Form 3999, Inspection of Letter Carrier Route. District or
                                  unit management enters the base route mileage in DOIS
                                  after the route inspection. Delivery unit supervisors then
                                  manually establish or update a route in AVUS with the
                                  authorized base mileage. The beginning mileage is verified
                                  or entered when the carrier departs for the street by
                                  scanning the “Depart to Route” barcode that prompts for
                                  the mileage. Upon returning to the office, the carrier scans
                                  the “Return to Office” barcode, which prompts for the
                                  ending mileage. Supervisors review and analyze carriers’
                                  actual mileage data using the AVUS Vehicle Daily
                                  Utilization Report. Supervisors conduct discussions with
                                  carriers on mileage deviations and make corrections in
                                  AVUS using the information in this report. Supervisors
                                  must edit AVUS information daily and the system stores the
                                  corrections through the end of the month. AVUS data is
                                  consolidated by reporting period and shared electronically

1
    The Postal Service released AVUS and DOIS nationally in 2002.




                                                         1
City Delivery Vehicle Mileage – Base Versus Actual                                        DR-AR-08-003
 – Capital Metro Area


                                 with the Vehicle Management Accounting System (VMAS)
                                 and Web-Enabled Enterprise Information System
                                 (WebEIS). Vehicle maintenance facilities use VMAS
                                 reports to monitor vehicle usage. The monthly mileage
                                 data is electronically sent to WebEIS2 for each area to
                                 show mileage utilization. (See flowchart in Appendix C.)

                                 The base route mileage information in DOIS and AVUS
                                 should agree to effectively manage city route mileage.
                                 When the AVUS actual route mileage does not agree with
                                 the AVUS authorized base route mileage, a variance exists.
                                 Factors such as incorrect recording of odometer readings,
                                 auxiliary assistance, and incorrect base miles recorded in
                                 AVUS could cause a variance.

                                 The AVUS Supervisor Users Guide, dated November 2006,
                                 and Handbook M-39, Management of Delivery Services,
                                 dated March 1998 (and updated through March 2004)
                                 require supervisors to (1) update route information when
                                 changes to routes occur after inspection to ensure accurate
                                 route mileage is recorded and (2) edit carrier route
                                 information daily to correct errors.

Objective, Scope,                Our overall objective was to evaluate the accuracy of the
and Methodology                  city delivery route mileage information. Specifically, we
                                 evaluated the accuracy of established route base mileage
                                 in AVUS. We also evaluated variances between the
                                 established route base and actual mileages recorded.

                                 To accomplish our objective, we interviewed managers and
                                 employees at headquarters, the area, and selected districts
                                 and units. We visited and reviewed information from
                                 delivery units in the Baltimore, Capital, Greater South
                                 Carolina, Greensboro, Mid-Carolinas, Northern Virginia,
                                 and Richmond Districts in the Capital Metro Area.




2
 WebEIS delivers easy access to detailed performance data continually gathered across the entire Postal Service.
WebEIS lets managers measure performance and identify areas for improvement, increasing overall Postal Service
efficiency.




                                                        2
City Delivery Vehicle Mileage – Base Versus Actual                                             DR-AR-08-003
 – Capital Metro Area



                                  We selected 23 delivery facilities from the universe of 304
                                  delivery facilities with 15 or more routes in the Capital Metro
                                  Area. (See Appendix B.) We selected a random 4-month
                                  period (January through April 20073) to review route
                                  information for each facility

                                  To evaluate the accuracy of the established route base
                                  mileage information in AVUS, we compared the route base
                                  information recorded in AVUS to DOIS.4 To evaluate
                                  variances between the authorized base mileage and actual
                                  mileage recorded, we evaluated variances of 4 to 19 miles
                                  occurring 12 times or more within a month.5 In addition, we
                                  reviewed variances of 20 miles or more occurring any time
                                  within the review month. We ascertained whether a PS
                                  Form 3996, Carrier – Auxiliary Control, Route Carrier Daily
                                  Performance/Analysis Report,6 or other appropriate
                                  documentation explained or supported mileage variances.

                                  We conducted this performance audit from March through
                                  October 2007 in accordance with generally accepted
                                  government auditing standards and included such tests of
                                  internal controls as we considered necessary under the
                                  circumstances. Those standards require that we plan and
                                  perform the audit to obtain sufficient, appropriate evidence
                                  to provide a reasonable basis for our findings and
                                  conclusions based on our audit objective. We believe that
                                  the evidence obtained provides a reasonable basis for our
                                  findings and conclusions based on our audit objective. We
                                  relied on data from DOIS and AVUS. We did not audit these
                                  systems, but performed a limited review of data integrity to
                                  support our reliance on data. We discussed our
                                  observations and conclusions with management officials on
                                  August 28, 2007, and included their comments where
                                  appropriate.




3
  AVUS only retains data in the server for approximately 3 months.
4
  We selected the delivery units and corresponding routes for the current 3-month period from AVUS. Route
inspections conducted on routes selected in the sample could have occurred resulting in an updated PS Form 3999
and subsequent route adjustments. The route inspection and adjustments could have increased or decreased the
authorized base mileage after the OIG selected the route data for review. The OIG adjusted the authorized base
mileages for these routes where appropriate during our audit.
5
  Because of the complexity of the auxiliary assistance issue, we did not evaluate auxiliary assistance mileage in this
audit. We discuss these mileages in this report because of the significant impact they have on mileage variance.
6
  This report assists supervisors in evaluating the performances of all routes within a delivery unit for a single day.




                                                           3
City Delivery Vehicle Mileage – Base Versus Actual                        DR-AR-08-003
 – Capital Metro Area




Prior Audit Coverage           The OIG issued three reports directly related to our
                               objective. These reports identified opportunities for
                               management to improve the accuracy of city delivery route
                               mileage information in the Eastern, Southeast and
                               Southwest Areas. We have included a complete listing of
                               the reports in Appendix D.




                                                     4
City Delivery Vehicle Mileage – Base Versus Actual                                     DR-AR-08-003
 – Capital Metro Area


                                         AUDIT RESULTS
City Delivery Mileage         Management can improve the accuracy of city delivery route
Information                   mileage information in the Capital Metro Area. Specifically,
                              AVUS route base mileage for 23 percent of the routes reviewed
                              did not agree with the authorized route base mileage in DOIS.
                              In addition, AVUS actual mileage exceeded base mileage by
                              60,503 miles. While there was support for some of the 60,503
                              miles we questioned, there was no evidence to support about
                              57 percent of the questioned miles. Overall, these conditions
                              existed because district officials did not provide oversight by
                              monitoring city delivery mileage information.

Authorized Base               Management did not always record city delivery route mileage
Mileage Information           information for the Capital Metro Area accurately. Specifically,
                              the route base mileage data in AVUS – the system used to
                              manage daily vehicle route information – did not always agree
                              with the authorized route base mileage in DOIS. Of the 703
                              routes reviewed in the 23 delivery units, 163 (23 percent) did
                              not agree with DOIS as shown in Table 1. Although most
                              differences were generally only one or two miles, eight delivery
                              units had at least one route with a difference of 10 miles or
                              more.


                                                                  TABLE 1
                                                      ROUTE BASE MILEAGE: AVUS VS. DOIS
                                                TOTAL                     AVUS
                                               NUMBER          TOTAL     VERSUS        AVUS        PERCENTAGE
                                                  OF          NUMBER      DOIS        VERSUS        OF ROUTES
                                               DELIVERY         OF         (IN      DOIS (NOT IN      NOT IN
                                  DISTRICT      UNITS         ROUTES   AGREEMENT)   AGREEMENT)     AGREEMENT
                               Baltimore             3          111        80           31            28%
                               Capital               5          198        188          10             5%
                               Greater South         1           27         7           20            74%
                               Carolina
                               Greensboro            3           92         78          14            15%
                               Mid-Carolinas         1          23          6           17            74%
                               Northern              6          154        121          33            21%
                               Virginia
                               Richmond              4          98         60           38            39%
                               TOTAL                 23        703         540          163           23%
                                                          SOURCE: AVUS and DOIS Reports

                              Unit supervisors at five of the delivery units reviewed stated
                              they were unaware they should be reviewing AVUS and DOIS
                              mileage information. In general, unit management indicated
                              that updating and correcting data in AVUS was not always a
                              high priority because supervisors focused on managing mail
                              delivery operations.




                                                          5
City Delivery Vehicle Mileage – Base Versus Actual                                  DR-AR-08-003
 – Capital Metro Area



                                  The base route mileage information in DOIS and AVUS should
                                  agree to effectively manage city route mileage. Correct route
                                  base mileage information is also critical to ensuring that carriers
                                  are maintaining the authorized line of travel on routes so that
                                  carriers deliver the mail in the quickest manner possible and at
                                  the least expense (i.e., fuel, wear and tear on vehicles, etc.).

Supporting                        Management did not always have adequate support for
Documentation for                 variances between AVUS base mileage and actual mileage.
Mileage Variances                 Based on our analysis, we questioned 60,503 in mileage
                                  variances. Although supervisors were able to provide evidence
                                  to support some of the 60,503 questioned mileage variances,7
                                  there was no evidence available to support 34,407 of the
                                  questioned miles. (See Table 2.)


                                                                        Table 2
                                                 VARIANCES: QUESTIONED MILES VS. UNSUPPORTED MILES
                                                     DELIVERY
                                                       UNITS                                   PERCENTAGE
                                                     REVIEWED                       TOTAL            OF
                                                      WITHIN        MILES       UNSUPPORTED   UNSUPPORTED
                                      DISTRICT       DISTRICT    QUESTIONED         MILES          MILES
                                    Baltimore            3          11,775           8,030          68%
                                    Capital              5          12,993           8,349          64%
                                    Greater South        1           2,338             0             0%
                                    Carolina
                                    Greensboro           3           7,990           7,024          88%
                                    Mid-Carolina         1            811             448           55%
                                    Northern             6           6,557           3,996          61%
                                    Virginia
                                    Richmond             4          18,039           6,560          36%
                                            TOTAL       23          60,503          34,407          57%
                                                            SOURCE: AVUS and DOIS Reports


                                  Supervisors did not consistently monitor carriers’ AVUS Vehicle
                                  Daily Usage Reports to review, analyze, and either correct
                                  errors or document why actual mileage exceeded base mileage.
                                  Further, supervisors did not always conduct and document
                                  discussions with carriers on routes where actual mileage
                                  exceeded the base mileage in AVUS. Supervisors stated that
                                  higher priorities, such as managing mail delivery operations,
                                  impacted their ability to perform this daily function.

                                  Although some delivery unit supervisors stated they did
                                  accomplish these tasks, they did not always maintain
                                  documentation supporting this. Of the 574 days of route

7
    See comment on page 8 for an explanation of the questioned mileage variances.




                                                          6
City Delivery Vehicle Mileage – Base Versus Actual                                              DR-AR-08-003
 – Capital Metro Area


                                  mileage data reviewed, we identified 309 days with mileage
                                  variances due to data errors or omissions. (See Table 3.)

                                                                        TABLE 3
                                                                                      8
                                                                 DAILY ERRORS IN AVUS
                                                                      TOTAL
                                                                   NUMBER OF      ERROR
                                                DISTRICT          REVIEW DAYS      DAYS           PERCENTAGE
                                          Baltimore                     70          42                60%
                                          Capital                     124             85               69%
                                          Greater South Carolina       23              0                0%
                                          Greensboro                   78              49              63%
                                          Mid-Carolina                 24              2                8%
                                          Northern Virginia           154             57               37%
                                          Richmond                    101             74               73%
                                          TOTAL                       574             309              54%
                                                         SOURCE: AVUS Vehicle Daily Usage Report


                                  For example, in the Richmond District, the             and
                                             Post Offices accounted for 52 of the 74 total errors
                                  identified for the days reviewed. In the Capital District, the
                                                            ,                    , and
                                               Post Offices accounted for 70 of the 85 total errors
                                  identified for the days reviewed. Most of these errors related to
                                  incorrect odometer recordings, negative actual mileage, or
                                  missing odometer readings9 and should also have been
                                  detected and corrected. According to the AVUS Supervisor’s
                                  Guide, the supervisor should conduct daily reviews and provide
                                  feedback to employees regarding input errors. The guidance
                                  further suggests this process should take a minimal amount of
                                  time.




8
  We define errors for this analysis as errors with negative total actual mileage, a daily actual mileage variance of 500
miles or more, blank odometer readings or odometer readings of zero. These errors were not included in the mileage
variance analysis of questioned mileage.
9
  Postal Operations Handbook 701, Fleet Management, dated March 1991 (updated with Postal Bulletins revisions
through March 31, 2005) states that carriers should record mileage in tenths of a mile. The OIG identified some unit
personnel that rounded up or down the tenths of the mile on the odometer while others ignored the tenths of a mile.
We plan to address this issue in the national capping report to Postal Service Headquarters.




                                                            7
City Delivery Vehicle Mileage – Base Versus Actual                                             DR-AR-08-003
 – Capital Metro Area



                                 Based on our sample results, we projected the Capital Metro
                                 Area incurred unrecoverable questioned costs of approximately
                                 $2,117,349 over an 11-month period. (See Appendix A.) The
                                 OIG will report the $2,117,349 in unrecoverable questioned
                                 costs in our Semiannual Report to Congress.

Audit Comment                    In the 23 units reviewed, auxiliary assistance10 miles
                                 represented approximately 28 percent of the 60,503 questioned
                                 miles. Because of the complexity of the auxiliary assistance
                                 issue, we did not evaluate auxiliary assistance mileage in this
                                 audit. We noted auxiliary assistance mileage in this report
                                 because of its significant impact on mileage variances and as
                                 information for management to review.

Recommendations                  We recommend the Vice President, Capital Metro Area
                                 Operations, direct District Managers to:

                                 1. Provide increased oversight by monitoring mileage
                                    information for accuracy.

                                 2. Inform all delivery unit supervisors how to update the
                                    Automated Vehicle Utilization System with route changes
                                    made in the Delivery Operations Information System and
                                    provide training as necessary.

                                 3. Re-emphasize to unit supervisors that route mileage
                                    information is a priority and they must timely update it and
                                    correct errors.

                                 4. Direct supervisors to review, analyze, and correct errors
                                    daily; document reasons for actual mileage exceeding
                                    authorized mileage; and maintain supporting documentation
                                    for 30 days.




10
  Auxiliary assistance is a process designed to allow delivery unit supervisors to provide assistance on a route or for
a vacancy by transferring a portion of deliveries to one or more carriers for that day.




                                                           8
City Delivery Vehicle Mileage – Base Versus Actual                        DR-AR-08-003
 – Capital Metro Area




Management’s                  Management agreed with our findings, recommendations, and
Comments                      monetary impact, and indicated they issued written instructions
                              to all district managers to ensure proper maintenance of the
                              DOIS and AVUS database systems. They also stated district
                              managers would ensure they train all supervisors with vehicle
                              responsibility on AVUS. In addition, management indicated
                              district managers would issue a policy letter emphasizing the
                              importance of route mileage information and the requirement to
                              update and correct errors on a daily basis. Finally,
                              management stated district managers would require managers
                              and supervisors to review, analyze, and correct AVUS data on a
                              daily basis; document mileage variances exceeding authorized
                              mileage on PS Form 1813; and maintain supporting
                              documentation for a minimum of 30 days. We have included
                              management’s comments, in their entirety, in Appendix E.

Evaluation of                 Management’s comments are responsive to the findings and
Management’s                  recommendations. Management’s actions taken and planned
Comments                      should correct the issues identified in the findings.




                                                     9
City Delivery Vehicle Mileage – Base Versus Actual                                               DR-AR-08-003
 – Capital Metro Area



                                                 APPENDIX A

  CALCULATION OF COST SAVINGS IN THE CAPITAL METRO AREA

The OIG identified $2,117,349 in unrecoverable questioned costs.

The OIG calculated the unrecoverable cost through a random sample of 304 delivery
facilities with 15 or more routes in the Capital Metro Area. After selecting the random
sample, the OIG selected a random month within the quarter for each facility. For the
Capital Metro Area, we reviewed the 4-month period of January through April 2007.

We identified 34,407 miles that were not supported. Based on these sample results, we
believe the average unsupported delivery mileage overage is at least 240,608 miles per
month at the 304 delivery units in the Capital Metro Area.

We extrapolated our test period finding to an 11-month period (we excluded December
because of seasonal issues) and computed the cost per mile.

                           Projected
Unsupported              unsupported              Extrapolated                                       Unsupported
miles per audit          miles for audit          miles over 11-                                      questioned
    finding                 universe              month period Cost per mile11                          costs
         34,407                 240,608                2,646,687         $.80                           $2,117,349




11
   The VMAS Fuel Report shows a cost per mile of 73 cents, which includes 24 cents per mile for fuel/oil. The OIG
performed an analysis of fuel/oil and determined the cost to be .31 per mile. The OIG determined the cost per mile
for this audit as follows: 73 cents/mile - 24 cents/mile for fuel (Postal Service figure) + 31 cents/mile for fuel (OIG
figure) = 80 cents/mile.




                                                           10
City Delivery Vehicle Mileage – Base Versus Actual                        DR-AR-08-003
 - Capital Metro Area



                                           APPENDIX B

        RANDOMLY SELECTED DISTRICTS AND DELIVERY UNITS


                       DISTRICTS                         DELIVERY UNITS

                         Baltimore



                          Capital




                Greater South Carolina

                       Greensboro



                      Mid-Carolinas

                    Northern Virginia




                        Richmond




                                                     9
City Delivery Vehicle Mileage – Base Versus Actual        DR-AR-08-003
 - Capital Metro Area




                                           APPENDIX C

         FLOW CHART –AVUS MILEAGE INFORMATION PROCESS




                                                     10
City Delivery Vehicle Mileage – Base Versus Actual                        DR-AR-08-003
 - Capital Metro Area


                                           APPENDIX D

                                 PRIOR AUDIT COVERAGE

                                                                               Unrecoverable
                                                                                Questioned
      Audit Report Title              Report Number           Issue Date           Costs
City Delivery Vehicle Mileage         DR-AR-07-015        September 29, 2007      $2,098,347
– Base Versus Actual –
Southeast
City Delivery Vehicle Mileage          DR-AR-07-014       September 26, 2007             $832,800
– Base Versus Actual –
Eastern Area
City Delivery Vehicle Mileage          DR-AR-07-013       September 26, 2007             $753,322
– Base Versus Actual –
Southwest Area
                                                                Total              $3,684,469




                                                     11
City Delivery Vehicle Mileage – Base Versus Actual        DR-AR-08-003
 - Capital Metro Area


                                           APPENDIX E

                              MANAGEMENT’S COMMENTS




                                                     12
City Delivery Vehicle Mileage – Base Versus Actual        DR-AR-08-003
 - Capital Metro Area




                                                     13
